                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

     Case Number: A09060049                                                       11          Page 1 of 1



                 We received an allegation of intellectual thefi from a reviewer1via a program director. The
          reviewer alleged that a proposal2 contained "disturbingly similar" passages to the reviewer's
          proposal, which was recently funded. When we called the reviewer to obtain more information, the
          reviewer stated that he no longer believed there was an issue. He stated that after he more carehlly
          reviewed his own proposal, he realized that the two proposals were not as similar as he previously
          believed. Thus, he withdrew his allegation.

                    Accordingly, this case is closed.




I'                                                                                                               111
NSF OIG Form 2 (1 1/02)
